Nos. 19-675 and 19-688
IN THE

Supreme Court of the United States
BANK OF AMERICA CORPORATION, ET AL., Petitioners,
v.
CITY OF MIAMI, FLORIDA, Respondent.
WELLS FARGO & CO., ET AL., Petitioners,
v.
CITY OF MIAMI, FLORIDA, Respondent.
On Petitions for Writs of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that I am a
member in good standing of the bar of this Court and that the Brief of Amicus
Curiae DRI–The Voice of the Defense Bar in Support of Petitioners contains 5,359
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d), and complies with the word limitation established by Supreme Court
Rule 33.1(g)(x).

Dated: December 26, 2019

Matthew T. Nelson

